                                                                UNCLASSIFIED



OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               MIDDLE EAST REGIONAL OFFICE


                               Limited-Scope Review of the Design and
                               Construction of a Recreation Center at
                               Embassy Dushanbe, Tajikistan




                               Report Number MERO-I-11-04, March 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                                                UNCLASSIFIED

                             UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General
                                             UNCLASSIFIED




                                   TABLE OF CONTENTS


INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

  Contractor’s Compliance with Intended Design and Construction Standards, Policies, 

  Laws, and Regulations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

  Monitoring Contractor Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

MANAGEMENT COMMENTS AND OIG RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . 13

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

APPENDIX I: COMMENTS FROM THE OFFICE OF ACQUISITION 

MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

APPENDIX II: COMMENTS FROM THE BUREAU OF OVERSEAS BUILDINGS 

OPERATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





   OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011             iv


                                             UNCLASSIFIED
                                            UNCLASSIFIED





v   OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                            UNCLA
                                            UNCL ASSIF
                                                   SIFIIED
                                            UNCLASSIFIED




INTRODUCTION


The Middle East Regional Office (MERO) of the Office of Inspector General (OIG)
performed this limited-scope review because of concerns about the Department
of State’s (Department) management of the contractor’s work and adherence to
internal policy, procedures, laws, and regulations. The objectives of this review
were to determine: (1) whether the contractor, PIR-5 LTD (PIR-5), constructed
the recreation center according to the intended design and in compliance with the
design and construction standards, laws, regulations, and policies; and (2) whether
the Regional Procurement Support Office (RPSO) in Frankfurt, Germany and
Embassy Dushanbe appropriately monitored PIR-5’s performance against contract
requirements.

OIG’s limited-scope review took place between September 2010 and November 2010
in Washington, DC; Frankfurt, Germany; and Dushanbe, Tajikistan. During the
review, OIG met with Embassy Dushanbe administrative, financial, and facilities
managers to review the design and construction process, contract administration,
contractor monitoring, and the invoice review process. In addition, OIG interviewed
RPSO procurement officials, three of the five contracting officer’s representatives
(COR) assigned to monitor the contractor’s performance, and the Bureau of Overseas
Buildings Operations (OBO) design and program management staff responsible for
administering the Dushanbe recreation center. OIG reviewed contract files, overseas
contracting regulations, OBO standards and building codes, and survey results of
the current conditions of the recreation center. OIG also physically observed the
Dushanbe recreation center during a site visit in October 2010.

This review is a second evaluation of the Department’s management of small post-
managed construction projects.1 In 2009, OIG reported that the contractor for the
heated parking garage and recreation center at Embassy Astana, Kazakhstan did
not follow OBO procedures for completing construction designs, including failure
to address 83 comments in OBO’s design review. In that project, the contractor
failed to: (1) complete design/construction documents, a safety plan, and a qual­
ity control plan and designs; (2) pay the required performance guaranty bond and
a payment bond; and (3) recover the value added tax on local procurements from
the Government of Kazakhstan. Additionally, the contractor allegedly failed to pay
salaries to local employees, vendors, and subcontractors. Furthermore, RPSO recently




1
 See Management and Internal Controls over Construction of a Heated Parking Garage and a Recreational Center
at the U.S. Embassy in Astana, Kazakhstan, MERO-I-09-11, November 2009.



    OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   1


                                            UNCLASSIFIED
                                              UNCLASSIFIED




    reported another failure of a post-managed construction project at Embassy Bishkek,
    Kyrgyzstan, citing poor evaluations of proposals, turnover of mission personnel, and
    resulting gaps in COR coverage.

    This memorandum report was prepared under the direction of Richard “Nick”
    Arntson, Assistant Inspector General for MERO. The following staff members
    conducted the review and/or contributed to the report: David Bernet, Patrick
    Dickriede, Carl Gipson, Kelly Herberger, and Kelly Moon.




2     OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                              UNCLASSIFIED
                                            UNCLASSIFIED




BACKGROUND


In 2006, after the completion of its new compound, Embassy Dushanbe initiated a
post-managed project to construct a recreation center consisting of a swimming pool,
bathhouse, and tennis court. Embassy Dushanbe and RPSO solicited a design/build
contract. In December 2006, RPSO and Embassy Dushanbe awarded a design/build
contract to a local (Tajik) contractor, PIR-5 for a total of $271,770. A subsequent
modification valued at $47,143 was added to the contract cost in May 2008, for a
total value of $318,913.

In January 2007, RPSO issued a notice to proceed with design, and PIR-5 designed
and constructed the recreation center from January 2007 until May 2009. OBO
issued the building permit2 in October 2007, following its approval of the contrac-
tor’s initial design.3 In July 2008, RPSO issued a notice to proceed with construc-
tion while PIR-5 was still developing the design. PIR-5 began construction in the
fall of 2008, and the initial project completion date was December 12, 2008. When
the contractor could not meet the initial completion date, it was formally extended
to April 30, 2009 through a contract modification.

On May 21, 2009, PIR-5 ceased site activities and walked off the job when RPSO
withheld payments for unsatisfactory performance and failure to meet the agreed
upon completion date. The contract was formally terminated for convenience4 on
July 15, 2009, and RPSO settled the termination price with the contractor.




2
 For projects involving U.S. Government-owned/long-term, leased real property, OBO reviews the design to
ensure that the project conforms to building codes adopted by the Department of State. If the project complies
with these building codes, OBO issues a building permit to be posted at the project site.
3
  The contract with PIR-5 requires the contractor to submit designs—an initial design that incorporates 60
percent of the contract specifications, and a final design that incorporates 100 percent of the contract specifica­
tions. OBO and the COR review and comment on both the initial and final designs. Before the final design is
approved, the contractor should address each comment provided by OBO and the COR in their reviews of both
the initial and final designs.
4
 According to the Foreign Affairs Handbook (FAH), 14 FAH-2 H-543.2a., “Situations may arise when the work
contracted for does not run to completion. Two standard contract clauses are designed to cover this eventuality:
the Termination for Convenience of the Government clause and the Default clause.” For fixed price contracts
terminated for convenience, per Federal Acquisition Regulation (FAR) 49.201(a), “A settlement should compen­
sate the contractor fairly for the work done and the preparations made for the terminated portions of the
contract, including a reasonable allowance for profit…various methods may be equally appropriate for arriving
at fair compensation.” According to FAR 49.402-2(a), if a fixed-price contract is terminated for default, the
U.S. Government is not liable for the contractor’s costs on undelivered work and is entitled to the repayment of
advance and progress payments.



    OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   3


                                            UNCLASSIFIED
                                                 UNCLASSIFIED




    In October 2009, OBO retained Swanke Hayden Connell Architects, an archi-
    tectural and engineering consulting firm, under an indefinite delivery indefinite
    quantity contract,5 to evaluate the existing conditions of the recreation center and
    determine how to complete the project.
    OBO provided a total of $318,913 in construction funds to Embassy Dushanbe for
    the design and construction of the recreation center. Table 1 shows the total amount
    of funds obligated, expended, and de-obligated upon contract termination.


    Table 1: Bureau of Overseas Buildings Operations Funding for Embassy
    Dushanbe Recreation Center


                                  FY 2007               FY 2008               FY2009              FY 2010                Total
        Contract Value              $271,770                $47,143                                                      $318,913
        Obligated                    $282,641               $50,000                                                      $332,641a
        Expended                       $10,871             $114,762              $177,743                                 $303,376
        De-obligated                                                                                 $29,265              $29,265b
                                                                                               Balance:                           $0
    a
     The total amount of obligated funding ($332,641) includes RPSO fees and value added tax, in addition
    to the total contract value.
    b
     The remaining balance of $29,265 was de-obligated at the time of contract termination. However, on
    November 24, 2010, RPSO reduced the de-obligated amount to $25,735 because Embassy Dushanbe and
    RPSO had erroneously included expenditures that were not directly related to the contract.

    Source: OIG analysis of RPSO and Embassy Dushanbe data




    5
     According to FAR 16.501-2 (a), “There are three types of indefinite-delivery contracts: definite-quantity
    contracts, requirements contracts, and indefinite-quantity contracts. The appropriate type of indefinite-delivery
    contract may be used to acquire supplies and/or services when the exact times and/or exact quantities of future
    deliveries are not known at the time of contract award.” Per FAR 16.504, “An indefinite-quantity contract
    provides for an indefinite quantity, within stated limits, of supplies or services during a fixed period.”




4        OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                                 UNCLASSIFIED
                                          UNCLASSIFIED




RESULTS 


CONTRACTOR’S COMPLIANCE WITH INTENDED DESIGN
AND CONSTRUCTION STANDARDS, POLICIES, LAWS,
AND REGULATIONS
OIG found that the contractor, PIR-5, did not design and construct the Dushanbe
recreation center in accordance with required building codes and guidelines. In
addition, Embassy Dushanbe, OBO, and RPSO did not ensure PIR-5 submitted the
required designs or resolved design issues prior to starting construction.

OIG confirmed through physical observation at Embassy Dushanbe and analy­
sis that the constructed facilities in their current condition do not comply with
International Building Code (IBC) specifications, OBO’s Standard Embassy Design
(SED), Americans with Disabilities Act (ADA) accessibility guidelines, and other
internationally accepted mechanical, plumbing, and electrical codes. This finding
corresponds with the results of Swanke Hayden Connell Architect’s evaluation of the
Dushanbe recreation center, which showed that the construction was substantially
incomplete and the recreation center was not constructed in accordance with required
codes and guidelines. Swanke Hayden Connell Architects reported that the site
paving, site retaining walls, the pools and pool deck areas, electrical system, and pool
filtration and heating systems were not completed, which resulted in an unsafe and
largely unusable facility. In addition, Swanke Hayden Connell Architects determined
that the site design of the pools and deck areas was not compliant with the IBC.
As a result, OBO concluded that all swimming pool facilities must be demolished,
redesigned, and reconstructed, except for the tennis court which was repairable.
OBO estimated tear down and reconstruction costs to be approximately $1.5
million. The initial project cost was $318,913. As of October 2010, OBO had issued
a modification to the existing task order for Swanke Hayden Connell Architects to
begin redesigning the recreation center. The actual reconstruction contract will be
re-competed, and rebuilding, according to OBO’s plan, will not commence until
late 2011. Instead of RPSO, the Office of Acquisition Management (AQM) in the
Bureau of Administration will administer the redesign and reconstruction contract;
an OBO employee will act as the COR. Table 2 outlines the deficiencies in design
and construction. Figure 1 shows the condition of the swimming pool and the pool
equipment room at the time of OIG’s visit to Embassy Dushanbe.




  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   5


                                          UNCLASSIFIED
                                               UNCLASSIFIED



    Table 2: Deficiencies in Design and Construction of the Embassy Dushanbe
    Recreation Center

                      Wading Pool (Wading Pool already demolished by the embassy)

     - Needs separate filtration and heating system
     - No underwater or exterior lighting
     - Needs adequate spacing from the main pool
     - No waterproof barrier
     - Improper plumbing drains
     - No suction entrapment avoidance
                                                  Swimming Pool
      - Pool design does not comply with OBO SED or the IBC
      - Needs separate filtration and heating system
     - No underwater and limited exterior lighting
     - Improper plumbing drains
     - No suction entrapment avoidance
     - No waterproof barrier
     - Needs outdoor shower
                                                  Cabana
     - Toilet, showers, and locker rooms are not handicapped accessible and do not meet
        OBO SED or the IBC
      - Floor is not slip-resistant or moisture-resistant
      - Needs corrosive resistant metal door and grab bars
      - No heating, ventilation, or exhaust system
                                        Pool Equipment Room
     - Inadequate spacing and area clearances from the pool deck area
     - No filtration, ventilation, or heating systems
     - Improper electric service and branch circuits
     - Severe honeycombing texture in entry stairs and cracks in retaining wall

                                                    Tennis Court
     - Concrete curb at the perimeter of the court not finished
     - Inadequate lighting for night time play
     - Fencing does not enclose all around the court
     - Poor water drainage in rain

    Source: OIG physical observation and analysis of OBO data





6      OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                               UNCLASSIFIED
                                              UNCLASSIFIED




Figure 1: Condition of the recreational facilities at Embassy Dushanbe: The photo on the left shows
incomplete and poor quality construction of the swimming pool. The photo on the right shows pipes
protruding from the wall of the pool equipment room.




Source: OIG

OIG found a number of underlying issues that led to deficiencies in the design
and construction of the recreation center. First, RPSO and the embassy based the
award decision on price, but did not assess the reasonableness of the proposed price
by adequately evaluating the contractor’s technical qualifications. The FAR states
that the evaluation of contract proposals should include consideration of whether
proposed prices are reasonable;6 purchases shall be made from, and contracts
awarded to, responsible prospective contractors only.7 PIR-5’s price proposal, the sole
offer received under the solicitation, was approximately 61 percent below the U.S.
Government estimate of $694,414. However, the proposal included no information
on PIR-5’s design experience, past performance in building swimming pools, the
suppliers and subcontractors it planned to use, or planned soil testing. Nevertheless,
the technical evaluation panel at the embassy determined the proposal to be condi­
tionally acceptable. As a result, RPSO and the embassy took a risk by awarding the
contract to an unqualified contractor.

Second, the Foreign Affairs Manual (FAM) states that, for projects valued at greater
than $250,000, staff from OBO’s Design and Engineering Division in the Project
Execution Office and other OBO professionals will assist the mission with all aspects
of the work, including project planning, design review, construction, and commis­
sioning.8 OBO and RPSO officials stated that, although the Embassy Dushanbe

6
    FAR 15.305(a) (1).
7
    FAR 9.103(a).
8
    15 FAM 645.1-2 (3).



      OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   7


                                              UNCLASSIFIED
                                                UNCLASSIFIED




    recreation center project met the $250,000 monetary threshold, it was decided the
    project would be post-managed. Additionally, the contract requires OBO and the
    on-site COR to review the contractor’s initial and final design documents. It also
    requires OBO to conduct a final “back-check” of the contractor’s final design to
    ensure that all issues identified during previous design reviews are resolved and
    incorporated into the final construction documents.

    PIR-5, however, never addressed OBO’s outstanding design issues. Furthermore,
    neither the COR at Embassy Dushanbe, nor OBO nor RPSO, verified that these
    design issues were resolved prior to authorizing the start of construction. In October
    2007, OBO approved the contractor’s initial design with the provision that the
    contractor address a number of OBO’s comments in the final design and during
    construction. These comments included such items as handicapped accessibility;
    pool layout; and plumbing, electrical, and safety items that were not in compliance
    with requirements in the IBC, ADA specifications, or other relevant construction
    codes. OBO provided detailed codes and specifications to the COR. According to
    emails written in November and December 2007 between the COR then at the
    embassy and RPSO, post management was eager to start construction of the project,
    despite the contractor’s failure to address OBO’s review comments or obtain required
    performance bonds and insurance. OBO subsequently agreed to allow the construc­
    tion to begin provided the contractor address the outstanding design issues in the
    final design, and the COR ensure they were incorporated into the construction of
    the facilities. On July 1, 2008, a construction notice to proceed was issued by RPSO,
    which authorized PIR-5 to begin construction without either PIR-5’s submittal or
    Department review of the final project design. Consequently, PIR-5 did not submit
    its final design until November 2008—1 month prior to the initial construction
    completion date. OBO pointed out that previously identified deficiencies had not
    been corrected by PIR-5 in its final design, but the contractor refused to make any
    corrections, stating that the facilities were already built and OBO had approved the
    initial design. As a result, the issues identified by OBO in its review of the initial
    design were never incorporated into the construction of the facilities.

    RPSO and Embassy Dushanbe also did not establish the means to guarantee perfor­
    mance or limit risk on a fixed-price contract. Because Embassy Dushanbe was eager
    to start the project, as stated in emails from November to December 2007, RPSO
    waived the requirements for performance guarantee. RPSO did not enforce a contract
    requirement to limit the U.S. Government’s risk through the contractor’s purchase of
    payment bonds and insurance9 when PIR-5 encountered difficulties obtaining them.
    No other means, such as bank letter of credit, were pursued to limit risk should the
    contractor fail to fulfill the terms of the contract. The waiver of bonding and insur­

    9
     The contract states that, pursuant to FAR 52.228-15 Performance and Payment Bonds – Construction, “…
    the contractor shall furnish (1) a performance guaranty bond in the amount of 10% and (2) a payment bond in
    the amount of 10% of the contract price from sureties acceptable to the Government, or comparable alternate
    performance security approved by the Government such as bank letters of credit or guaranty.”



8       OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                                UNCLASSIFIED
                                              UNCLASSIFIED




ance requirements, coupled with the termination of PIR-5’s contract for convenience,
leaves the Department with little ability to recover any of the $303,376 expended on
the construction of this recreation center.

MONITORING CONTRACTOR PERFORMANCE
The CORs assigned to oversee the contractor’s design and building of the Embassy
Dushanbe recreation center did not properly monitor the contractor’s performance.
CORs failed to establish quality assurance measures, ensure the contractor submitted
contractually required documents, or monitor progress.

The FAH states that the COR is responsible for ensuring that “the Department gets
what it pays for through good contractor performance.” The COR must ensure the
contractor complies with reporting provisions in the contract, and must read and
understand the contractor’s progress reports to identify possible risks. The COR is
responsible for developing quality assurance procedures, verifying that supplies or
services conform with contract quality requirements, and maintaining quality assur­
ance records.10

The CORs assigned to the Dushanbe recreation center project did not ensure that
PIR-5 submitted the required contractual deliverables. Although the contractor
routinely submitted invoices for payment, OIG found no evidence in the contract
files of required safety and quality assurance plans, weekly inspection reports,
monthly progress reports, or updated construction schedules. Such reports are neces­
sary to measure contractor performance, ensure services are being performed accord­
ing to contract requirements, and account for the actual progress of the work with the
approved adjustments. Moreover, OIG found no daily logs indicating construction
progress, weather conditions, or the number of people working on the project. CORs
reported performance problems including lack of personnel, poor progress, and qual­
ity of construction to the contracting officer at RPSO, but they failed to collect the
required documents to monitor performance and hold the contractor accountable.
Additionally, until the last invoice, CORs continued to approve invoices, which were
not written in English, and paid the contractor although the work was unacceptable.

A constant turnover of CORs and a shortage in management staff to oversee the proj­
ect led to a lack of continuity in contract management. Five different CORs served
during the 30 months the contract was operational. In addition, staff on temporary
duty often filled in during the periods between the departure and arrival of CORs.
Those who were assigned as CORs, including facility managers and general services
officers, lacked the technical expertise, contract management skills, and COR train­
ing to adequately monitor the contractor’s performance. Furthermore, CORs could


10
     Paraphrasing of information found in 14 FAH-2 H-521b., 14 FAH-2 H-522.2, and 14 FAH-2 H-523.



      OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   9


                                              UNCLASSIFIED
                                               UNCLASSIFIED




     not verify whether the contractor was meeting OBO standards or other building
     design and construction code requirements.

     Because of inadequate contractor performance monitoring and insufficient qual­
     ity assurance, the contractor was not held accountable for deficiencies and delays.
     Without the proper means to measure progress and detect risks, the project contin­
     ued to run behind and the completion date was extended several times. The project
     eventually ran out of funds prior to completion. When RPSO tried to withhold the
     last payment due to poor progress and quality, the contractor argued that the proj­
     ect was 94 percent complete. The COR and RPSO could not specifically measure
     progress, but estimated the project was 85 percent complete. In addition, because of
     the COR’s lack of documentation, there was nothing to support termination of the
     contract for default.

     Conclusion
     RPSO and Embassy Dushanbe awarded a contract to an unqualified contractor,
     whose proposal—the only one submitted in response to the solicitation—was 61
     percent below the independent government cost estimate. In addition, embassy staff
     did not have the technical knowledge to monitor the contractor’s performance, or
     determine whether the contractor designed and constructed the facilities accord­
     ing to required standards and regulations. Moreover, even if the embassy had the
     technical and managerial skills to properly monitor the contract, frequent turnover
     of CORs made project oversight inconsistent. As a result, Embassy Dushanbe was
     left with substantially incomplete and poorly constructed facilities that could not be
     used and posed safety hazards to embassy staff. What was built did not meet OBO
     quality standards, relevant building codes, or contractual requirements. Further, an
     additional $1.5 million—more than five times the original contract value—as well
     as a significant amount of time will be needed to re-procure, demolish, redesign, and
     reconstruct the recreation center. Finally, OIG notes that a similar lack of oversight
     and failure to follow contractual requirements arose in post-managed construction at
     Embassy Astana and were reported to have occurred for a post-managed construction
     project at Embassy Bishkek.




10     OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                               UNCLASSIFIED
                                          UNCLASSIFIED




RECOMMENDATIONS


RECOMMENDATION 1: The Office of Acquisition Management, in consultation
with the Bureau of Overseas Buildings Operations (OBO), should develop guid­
ance that requires the chairman of a technical evaluation team for a post-managed
construction project be an OBO-assigned employee with construction engineering
experience. (Action: AQM, in consultation with OBO)


RECOMMENDATION 2: The Office of Acquisition Management, in consulta­
tion with the Bureau of Overseas Building Operations (OBO), should require the
contracting officer for a post-managed construction project to obtain an audit from
OBO’s Office of Cost Management before awarding a contract that varies more than
20 percent from the Independent Government Cost Estimate. (Action: AQM, in
consultation with OBO)


RECOMMENDATION 3: The Bureau of Overseas Buildings Operations should
ensure that the initial and final designs for post-managed construction projects are
fully reviewed and approved prior to commencing construction. (Action: OBO)


RECOMMENDATION 4: The Office of Acquisition Management, in consulta­
tion with the Bureau of Overseas Buildings Operations, should review and approve
management and quality assurance plans for post-managed construction projects
prior to starting construction, and conduct periodic reviews to determine construc­
tion progress and identify risks. (Action: AQM, in consultation with OBO)


RECOMMENDATION 5: The Bureau of Overseas Buildings Operations (OBO),
in consultation with the Office of Acquisition Management, should establish mini­
mum technical qualifications for contracting officer’s representatives overseeing
post-managed construction projects to ensure construction meets OBO’s quality
standards. (Action: OBO, in consultation with AQM)




  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   11


                                          UNCLASSIFIED
                                             UNCLASSIFIED





12   OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                             UNCLASSIFIED
                                          UNCLASSIFIED



MANAGEMENT COMMENTS AND
OIG RESPONSE

OIG twice provided a draft of the report to Embassy Dushanbe, the AQM, and
OBO for review and comment. The second comment period was necessary because
changes to one recommendation resulted in a change of the action office from AQM
to OBO.

Embassy Dushanbe provided informal technical comments on both versions of the
draft report. The embassy generally agreed with the report’s recommendations, but
disagreed with supporting evidence in the initial draft regarding the embassy’s efforts
to expedite the contract solicitation and construction processes. The subsequent
version of the report incorporated additional information supporting the conclusion.

AQM provided written comments, which are included verbatim in Appendix I, only
on the initial draft. AQM concurred with OIG’s general finding that errors made by
the acquisition team exposed the U.S. Government to increased risk. However, AQM
believed the recommendations were too broad, given the scope of the evaluation.
Based on AQM’s comments, OIG deleted one initial recommendation, modified the
language of three others, and added a new recommendation. In particular, AQM
stated that the recommendation to “establish procedures to ensure CORs for post
managed construction projects have both construction and contract management
experience sufficient to oversee contractor performance” was unnecessary because
such procedures already exist. AQM further stated that if OIG retained the recom­
mendation, OBO should be designated the action office because using other than
mission personnel to manage OBO projects is the responsibility of OBO, not AQM.

OBO provided written comments on both versions of the draft report; both sets of
comments are included verbatim in Appendix II. OBO agreed with the initial find­
ings and each of the recommendations as written in the initial draft report. However,
OBO disagreed with the revised recommendation in which OBO, rather than AQM,
is the action office for developing guidance on oversight of CORs for post-managed
projects. OBO stated it has no authority to issue such guidance. Rather, according to
OBO, such guidance should derive from the Office of the Procurement Executive,
which sets the procurement policies AQM implements.

As noted in this report, the Embassy Dushanbe recreation center is one of at least
three Central Asian construction projects that in recent years either failed or exposed
the U.S. Government to unnecessary and significant financial risks. In each of these
instances, CORs with little experience in construction trades failed to properly


  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   13


                                          UNCLASSIFIED
                                               UNCLASSIFIED




     oversee contractor performance and construction quality. OIG believes these issues
     indicate a potentially systemic problem in post-managed construction projects, and
     the recommendations are designed to correct the identified issues. Both OBO and
     AQM have critical roles in developing and monitoring construction contracts—OBO
     acting as construction and technical experts, and AQM as contracting experts.
     Each office is responsible for ensuring that post-managed projects are effectively
     managed. OIG agrees with OBO that it has no authority to issue guidance on
     monitoring contracts. Rather, that authority lies with AQM, which acknowledges in
     its comments that established procedures were not followed. However, OIG believes
     OBO does have the authority to determine CORs’ technical qualifications to ensure
     construction meets the quality standards outlined in the contract. Therefore, OIG
     has modified recommendation 5 to focus solely on the construction management
     aspects of the CORs’ duties.




14     OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                               UNCLASSIFIED
                                          UNCLASSIFIED




ABBREVIATIONS


ADA                                 Americans with Disabilities Act
AQM                                 Office of Acquisition Management
COR                                 contracting officer’s representative
Department                          Department of State
FAH                                 Foreign Affairs Handbook
FAM                                 Foreign Affairs Manual
FAR                                 Federal Acquisition Regulation
IBC                                 International Building Code
MERO                                Middle East Regional Office
OBO                                 Bureau of Overseas Buildings Operations
OIG                                 Office of Inspector General
PIR-5                               PIR-5 LTD
RPSO                                Regional Procurement Support Office
SED                                 Standard Embassy Design




  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   15


                                          UNCLASSIFIED
                                             UNCLASSIFIED





16   OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                             UNCLASSIFIED
                                          UNCLASSIFIED



APPENDIX I: COMMENTS FROM
THE OFFICE OF ACQUISITION
MANAGEMENT

                                                                     January 24, 2011

MEMORANDUM



TO:                OIG/MERO – Richard G. Arntson

FROM:              A/LM/AQM - Cathy J. Read

SUBJECT: Response to the OIG’s Draft Limited Scope Review of the Design and
Construction of a Recreation Center at Embassy Dushanbe in

Tajikistan (Contract No. SGE500-07-C-1034), MERO-1-11-04

As requested, we have reviewed the subject draft report. We have some substan­
tive comments and concerns, which we have compiled and attached to this
memorandum.

In particular, we feel that the recommendations are too broad and request actions
that will be ineffective to remedy what was errors in judgment by the acquisition
team caused by a specific set of issues that arose on this one contract being awarded
in a country with minimal good local contractors.

Thank you for the opportunity to review and comment on the draft report. We
would be pleased to meet with you and/or your staff, if you have questions regarding
our response.

Attachment: As stated.




  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   17


                                          UNCLASSIFIED
                                               UNCLASSIFIED




     The draft report establishes the Office of Acquisition Management as a participant
     for recommendations 1, 3, 4, and 5.

     AQM comments: AQM concurs with the facts in the report and concurs that errors
     of judgment were made by the members of the acquisition team that increased risk
     on the Government and caused the failure of this project. However, we believe the
     recommendations to be too broad and should be deleted or modified as follows.

     Request to delete or modify Recommendation 1

     Recommendation 1: The office of Acquisition Management, in consultation with
     the Bureau of Overseas Building Operations, should establish procedures to ensure that
     missions evaluate the reasonableness of contract proposals and select only contractors that
     demonstrate they meet all technical qualifications required to complete such projects.

     A/LM/AQM response: AQM believes this recommendation to be too broad as
     written because the FAR and other procurement regulations already address how a
     source selection should be conducted in order to reduce the risk of selecting a quali­
     fied contractor. These regulations protect the Government in the vast majority of
     cases. Your limited review was looking at a specific set of circumstances that require
     limited changes.

     It is agreed that in the case of this acquisition, there may have been errors in judg­
     ment by the acquisition team. AQM does not believe we can achieve improved
     performance by creating additional procedures.

     However if additional guidance must be given, it must address the exact problem
     found in your review which was lack of construction knowledge on the evaluation
     team, the evaluation team not wanting to delay the project and the Contracting
     officer taking a risk on price without enough advice.

     If the OIG does not wish to delete the recommendation AQM suggests the recom­
     mendation be narrowed to state: “The Office of Acquisition Management, in
     consultation with the Bureau of Overseas Building Operations, publishes guidance
     that requires the chairman of a technical evaluation team for an OBO post managed
     construction project (to include design/build) be an OBO assigned employee with
     construction engineering experience. AQM should require the contracting officer to
     obtain audit from the OBO Office of cost Management before awarding a contract
     that varies more than 20% from the IGCE”.




18     OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                               UNCLASSIFIED
                                          UNCLASSIFIED




Request to delete or modify recommendation 3:


Recommendation 3: The office of Acquisition Management, in consultation with the
Bureau of Overseas Buildings Operations, should ensure that management and quality
assurance plans for post-managed construction projects, are established prior to starting
construction, and that contractually required reports are collected from the contractor and
reviewed to measure progress and identify risks.

A/LM/AQM response: AQM agrees that the Contracting Officers Representative
should ensure a quality assurance plan is in place and that he is collecting the data
necessary to ensure quality contractor performance. However, this is already tasked
on the COR by his required COR training and his appointment letter. AQM does
not believe this recommendation can result in any positive changes and should be
deleted. If the OIG disagrees, then AQM suggests action on the recommendation be
transferred to OBO because the failure to follow already established COR procedures
is a discipline issue and not a procedural one.

Request to delete or modify recommendation 4.

Recommendation 4: The Office of Acquisition Management, in consultation with
the Bureau of Overseas Buildings Operations, should establish procedures to ensure the
contracting officer’s representatives (COR) for post-managed construction projects have
both contract and construction management and experience sufficient to oversee contrac­
tor performance, and that a single COR responsible for contract oversight is assigned to the
project throughout the construction process.

A/LM/AQM response: AQM believes this recommendation to be too broad, inac­
curate and states the obvious. It would be ideal for every COR to have the knowl­
edge and skills in your recommendation. However, few personnel in the department
have all these skills. First, there is no requirement for CORs to have contract
experience before being assigned a COR on any type of contract to include those over
$100M. Secondly, the requirements office has an inherent duty to reduce risk to the
Government by assigning personnel that have the qualifications and skills required to
manage their projects. If they do not assign appropriate personnel it is a management
control issue and writing volumes of procedures will not correct this. AQM recom­
mends deleting any recommendation to write more procedures as it is costly and does
not solve the real issue.

The recommendation on having one COR for the length of the project is desirable
but impossible so there is no use of making the recommendation. Post personnel are
on one to three year rotations at best and sometimes have to curtail. The situation
in this limited scope review was unique in that the contractor could not perform the
contract in a timely manner. There would not have been such a high turnover of
CORs had he performed on schedule. The problem on this contract should not be


  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   19


                                          UNCLASSIFIED
                                               UNCLASSIFIED




     generalized as an issue on other post projects. Therefore, AQM believes this recom­
     mendation should be deleted.

     However, if the OIG does not agree, you should address the real issue and assign the
     recommendation to OBO. Using other than Post personnel to manage OBO post
     projects is totally in OBO’s authority and not AQMs. The issue should be the use
     of Post personnel (usually the facility manager) by OBO instead of assigning a full
     time project director. AQM believes doing this on a small dollar project to be cost
     prohibitive but that is an OBO management decision that they should address.

     Request to delete recommendation 5

     Recommendation 5: The Office of Acquisition Management should ensure that
     contractors for post-managed construction projects secure performance and payment bonds
     or that other means of performance guarantees are established prior to executing the work
     requirements of the contract.

     A/LM/AQM response: The FAR already levies the responsibility on the contracting
     officer to protect the interest of the Government by obtaining bonds (domestically),
     letters of credit (overseas) or other security to protect the Government on construc­
     tion contracts. The contract required the security until the contracting officer made
     the decision to delete the requirement by modification without obtaining some other
     form of security. While incorrect and risky, making this decision on a contract under
     $1M is within the authority of the contracting officer without higher level review.
     This one time discrepancy by the contracting officer on this particular contract is not
     a policy or procedure issue that AQM can take any action on. AQM requests OIG
     delete this recommendation because there is no cost effective action AQM can take
     to “ensure” something already required by the FAR.




20     OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                               UNCLASSIFIED
                                          UNCLASSIFIED



APPENDIX II: COMMENTS FROM THE
BUREAU OF OVERSEAS BUILDINGS
OPERATIONS


                                                         United States Department of State

                                                                     Washington, D.C. 20520



                                                                     JANUARY 25, 2011

UNCLASSIFIED
MEMORANDUM

TO: 	                  OIG/MERO – Mr. Richard G. Arntson

FROM: 	                OBO/RM – Jürg E. Hochuli


SUBJECT:	                Response to the OIG Draft Limited Scope Review of the Design
                         and Construction of a Recreation Center at Embassy Dushanbe,
                         Tajikistan (Contract No. SGE500-07-C-1034), MERO-1-11-04


        Per your request, OBO thanks the OIG for the opportunity to respond to
the recommendations listed in the draft limited scope review of the Dushanbe
recreation center project. For ease of reference, our responses are in bold type.



Attachment: 

OBO Response, January 2011





  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   21


                                          UNCLASSIFIED
                                               UNCLASSIFIED




                              OBO Comments on the OIG Draft Report
                    Limited Scope Review of the Design and Construction of
                            Embassy Dushanbe Recreation Center


     OBO received the draft report on the Dushanbe Recreation Center from the OIG
     on January 11, 2011 with comments requested by January 24, 2011.
     OBO General Comments on the Draft Report: Post managed projects enable
     the Bureau of Overseas Buildings Operations (OBO) to provide services
     to posts worldwide. Generally, the Facility Manager (FM) serves as the
     Contracting Officer’s Representative (COR) and post allows the FM to
     have the necessary time to manage the technical aspects of the construction
     services contract. A solid framework exists for contract administration,
     which should be enforced to ensure compliance with procurement
     regulations. OBO’s support during construction administration ranges from
     review of technical submittals to conducting on-site inspections, but the role
     of the COR remains directly linked to the contracting officer.

     The following responses reference existing regulations and procedures to provide
     successful management of post managed contracts.

     OIG Recommendation 2: The Bureau of Overseas Buildings Operations should
     ensure that the initial and final designs for post-managed construction projects are
     fully reviewed and approved prior to commencing construction. (Action: OBO) (p.
     11)

     OBO Comment: OBO agrees with the recommendation. As a matter of
     fact, 15 FAM 640 requires posts to submit drawings and other technical
     documents for review and for an OBO building permit to be issued before
     beginning work on a facility overseas.

     OIG Recommendation 1: The Office of Acquisition Management, in
     consultation with the Bureau of Overseas Buildings Operations, should establish
     procedures to ensure that missions evaluate the reasonableness of contract
     proposals and select only contractors that demonstrate they meet all technical
     qualifications required to complete such projects. (Action: AQM, in consultation
     with OBO) (p. 11)
             OBO Comment: AQM provides guidance for a Technical Evaluation
             Panel (TEP) during reviews of bidder documentation, which includes
             identification of deficiencies, checking references, price analysis/cost
             analysis and adequate price competition.  The Independent Government
             Cost Estimate (IGCE) provides a basis for review of bidder submissions
             by the COR and TEP.  Construction industry practices acknowledge


22     OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                               UNCLASSIFIED
                                          UNCLASSIFIED




          price fluctuation with ranges up to 5-8% for non-proprietary items,
          assemblies and systems which can be expected due to multiple factors
          including transportation, source, distribution, backorders, etc. AQM
          reinforces this procurement process during the bid phase and provides
          guidance to the COR and TEP when abnormally high or low and single
          bids are received on construction projects.

OIG Recommendation 3: The Office of Acquisition Management, in consultation
with the Bureau of Overseas Buildings Operations, should ensure that management
and quality assurance plans for post-managed construction projects, are established
prior to starting construction, and that contractually required reports are collected
from the contractor and reviewed to measure progress and identify risks. (Action:
AQM, in consultation with OBO) (p. 11)

          OBO Comment: The role of the COR during construction administra­
          tion includes elements common to all construction contracts including
          documenting contractor’s progress of work, reviewing contractor techni­
          cal submittals, and inspection of materials and work in place to review
          contractor payment applications.  This process allows equitable payment
          for acceptable services and work performed by the contractor.  AQM can
          request that the COR provide a monthly update on project status, which
          coincides with payment applications to ensure the COR is fulfilling their
          obligations. Updates will ensure work at the site is progressing in an
          approved manner and eliminates the risk of advance payments for work
          that is not in place or is not acceptable. AQM also has quality assur­
          ance and control contractors who can provide support as needed. OBO
          requires all of its CORs to be trained.

OIG Recommendation 4: The Office of Acquisition Management, in consultation
with the Bureau of Overseas Buildings Operations, should establish procedures to
ensure contracting officer’s representatives for post-managed construction projects
have both contract and construction management and experience sufficient to oversee
contractor performance, and that a single COR responsible for contract oversight
is assigned to the project throughout the construction process. (Action: AQM, in
consultation with OBO) (p. 11)

          OBO Comment: The transition of contracts between CORs can be
          formalized by requiring the turnover of contract files maintained by the
          previous COR to the current COR.  This ensures accountability for each
          tenured COR over the duration of a contract.  OBO recommends that
          AQM review post managed project COR Nomination Memorandums,




  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   23


                                          UNCLASSIFIED
                                             UNCLASSIFIED




             which includes an individual’s historical data, in managing government
             projects and formalized COR training to determine if the nominee is
             appropriate for the contract. OBO requires both initial COR training as
             well as refresher training for its CORs.




24   OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                             UNCLASSIFIED
                                          UNCLASSIFIED





                                                         United States Department of State

                                                                     Washington, D.C. 20520



                                                                     FEBRUARY 17, 2011

UNCLASSIFIED
MEMORANDUM

TO: 	                  OIG-MERO – Mr. Richard Arnston

FROM:                   OBO/RM – Jürg E. Hochuli



SUBJECT:	                OBO Comments to the Limited Scope Review of the Dushanbe
                         Recreation Center Project Draft Report


          Please find OBO’s comments to the subject referenced draft report.




Attachment:
    OBO Comments




  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   25


                                          UNCLASSIFIED
                                               UNCLASSIFIED




                          OBO Comments on the OIG Draft Report

                    Limited Scope Review of the Design and Construction of

                            Embassy Dushanbe Recreation Center



     OIG Recommendation 1: The Office of Acquisition Management, in
     consultation with the Bureau of Overseas Buildings Operations, should develop
     guidance that requires the chairman of a technical evaluation team for a post-
     managed construction project be an OBO-assigned employee with construction
     engineering experience. (Action: AQM, in consultation with OBO) p. 11


               OBO Comment: OBO agrees with this recommendation. The guidance
               can be put in a cable that goes forth with each project. OBO can simul­
               taneously amend the FAM to reflect the cable guidance.  The Facility
               Manager, based on technical knowledge and experience, who typically
               serves in the role of COR for contract actions, could serve as chairman
               of the technical review committee for contractor proposals. Additional
               technical support may be provided by OBO for complex procurement
               actions in conjunction with the Facility Manager/COR.

     OIG Recommendation 2: The Office of Acquisition Management, in consulta­
     tion with the Bureau of Overseas Building Operations (OBO), should require the
     contracting officer for a post-managed construction project to obtain an audit from
     OBO’s Office of Cost Management before awarding a contract that varies more than
     20 percent from the Independent Government Cost Estimate. (Action: AQM, in
     consultation with OBO) p. 11

               OBO Comment: OBO agrees with this recommendation. Currently,
               post-managed projects normally do not have a current working estimate
               or independent government cost estimate prepared by OBO’s Office of
               Cost Management (COST). COST can perform this function; however,
               OBO currently does not know the impact this function would have in
               terms of increased workloads. It may be determined that additional staff
               would be required to perform this function that may prove problematic
               in the current budget environment.




26     OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011


                                               UNCLASSIFIED
                                          UNCLASSIFIED




OIG Recommendation 3: The Bureau of Overseas Buildings Operations should
ensure that the initial and final designs for post-managed construction projects are
fully reviewed and approved prior to commencing construction. (Action: OBO) p. 11

    OBO Comment: OBO agrees with this recommendation.

OIG Recommendation 4: The Office of Acquisition Management, in consulta­
tion with the Bureau of Overseas Buildings Operations, should review and approve
management and quality assurance plans for post-managed construction projects
prior to starting construction, and conduct periodic reviews to determine construc­
tion progress and identify risks. (Action: AQM, in consultation with OBO) p. 11

          OBO Comment: OBO agrees with this recommendation.

OIG Recommendation 5: The Bureau of Overseas Buildings Operations, in consul­
tation with the Office of Acquisition Management, should establish guidance on
the necessary qualifications for and oversight of contracting officer’s representatives
(COR) for post-managed construction projects, as well as guidance for ensuring
management continuity as CORs transfer to and from missions. (Action: OBO, in
consultation with AQM) p. 11

          OBO Comment: OBO disagrees with this recommendation and should
          not be the action entity. The provision of such guidance should come
          from the Office of the Procurement Executive, which is responsible
          for establishing training and CO/COR qualification requirements. 
          Presumably OPE would draw on OBO expertise, but in fact, OBO has
          no authority to issue such guidance on its own.  See Department of State
          Delegation of Authority 120-5.




  OIG Report No. MERO-I-11-04 - Limited-Scope Review: Design & Construction of a Rec. Center at Embassy Dushanbe - March 2011   27


                                          UNCLASSIFIED
         UNCLASSIFIED





FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




         UNCLASSIFIED

